                             CLOSEOUT FOR M-93110059




an initial published paper on which the complainant was a co-author; 2) overstated the available
"evidence" in the initial paper and other subsequent review articles; and 3) omitted the
complainant as a co-author on an abstract that included some of his work. The complainant
further alleged that subjects #1 and #2 had: 4) failed to provide him sufficient opportunity to
review the initial paper on which the complainant was a co-author prior to publication; 5 ) failed
to credit collaborators including the complainant in three articles that contained joint work; and
6) failed to acknowledge NSF supported work in the same three articles. These allegations
involved 13 NSF awards, each with one or more of the subjects as investigators,
                                                                              -       collaborating
with the NSF supported                                                                   h        e
project).

      OIG reviewed the complainant's letters, the relevant diary notes provided by one program
manager, and the articles in question. OIG contacted the complainant who provided additional
information. Finally, OIG contacted the subjects to elicit their views.

       With regard to the first allegation, OIG determined that the subjects did not incorporate
all the available data in the initial paper, but instead included selected diagrams to represent
pertinent information collected in the large database. OIG concluded that the data not included
in the subjects' paper would not have changed the paper substantively. OIG understands that
it is not always possible or desirable to include all the data gathered especially when these
represent a large'dataset. There was nothing improper about the subjects not including all the
diagrams associated with the large database. This allegation has no substance.

       With regard to the second allegation, the data presented in the published paper, on which      ,
the complainant was a co-author, supported the subjects' interpretations and OIG found no
evidence that the subjects had overstated the data in the article. OIG learned from the




                                           Page 1 of 3                                    M93-59
                             CLOSEOUT FOR M-93110059

complainant that when he reviewed the co-authored initial paper he disagreed with some of the
interpretations. OIG learned that the complainant, although he disagreed with some of the
interpretations, wanted credit as a co-author. Scientific disagreement with respect to reasonable
interpretations is not an issue of misconduct in science. OIG determined that the subjects
repeated these same interpretations in subsequent review articles. This allegation has no
substance.

       With regard to the third allegation, the subjects explained that the abstract was an
interpretative abstract based primarily on data collected during the most recent field season. The
subjects explained that, although the complainant had participated in the collection of these data,
he had not been involved with their interpretation and therefore was not included as a co-author.
The complainant confiied that he had not been involved with the interpretation of these data.

       OIG learned that within this scientific field it was commonly accepted practice that
authorship privileges on interpretative abstracts are granted only to those investigators who were
involved with the actual interpretations and that data collection alone was not sufficient for
co-authorship. This allegation has no substance.

       With regard to the fourth allegation, OIG was told by the complainant that he had
received a copy of the initial paper on which he was a co-author just prior to his departure for
a lengthy field season, and he did not have sufficient time to adequately review it. The
complainant believed that subjects #1 and #2, who were responsible for distributing copies of
the paper, should have provided him more time to review it. OIG determined that the
complainant had received a copy of the paper at least three months before its publication, but
because of his own commitments did not review the paper until shortly before it was published.
Although the subjects9behavior may not have been collegial with respect to assuring that the
complainant had sufficient time to review the gaper, 016 determined that, in this case, the
seriousness of this allegation did not constitute an issue of misconduct in science.

        With regard to the fifth allegation, OIG determined that all three articles in question were
general news articles. Two of the articles were written by science repol-rers, not by the subjects.
The third article, authored by subjects #I and #2, did not include ihe names of the other
participants in the project in the text. However, the subjects mentioned the group project several
times in the article as well as including as suggested reading a paper that was jointly authored
by all the participants. Although it would have been collegial if subjects #1 and #2 had included
the names of all the participants in the news article, they were not required to name everyone
in the group. OIG determined that there was insufficient substance to the allegation to pursue
it further.

      With regard to the sixth allegation, OIG determined that NSF support had not been
acknowledged in the three news articles. Although subjects #1 and #2 did not write two of the

                                           Page 2 of 3                                     M93-59
                            CLOSEOUT FOR M-93110059

articles, they did write the third and should have acknowledged NSF's support. OIG learned
that their failure to acknowledge NSF support in this article had already been brought to their
attention by the NSF program manager in charge of the project. In response, the subjects had
offered to write a letter to the journal explaining their omission. However, the program
manager told them that this was not necessary, but urged them to acknowledge NSF support in
the future. OIG determined that the subjects had been reminded of their responsibility to
acknowledge NSF support when reporting work completed with NSF funds. OIG determined
that the program adequately dealt with the subjects9failure to acknowledge NSF support and that
in this case the matter was not sufficiently serious to pursue further as an issue of misconduct
in science.

       This inquiry was closed and no further action will be taken on this case.

cc:    Staff Scientist, Deputy AIG-Oversight, NG-Oversight, IG




                                         Page 3 of 3
